HHS/OIG-Audit--"Audit of Medicare Segment Closing at Travelers Insurance Company, (A-07-97-01213)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of the Medicare Segment Closing at Travelers Insurance Company,"
(A-07-97-01213)
March 13, 1998
Complete Text of Report is available in PDF format
(1.3 MB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report points out that approximately $5.6 million in excess
pension assets at Travelers Insurance Company should be remitted to Medicare.
Travelers closed its Medicare segment (line of business) effective December
31, 1994. Federal regulations and Medicare contracts provide that pension gains
which occur when a Medicare segment closes should be credited to the Medicare
program. We recommended that Travelers return the $5.6 million in excess pension
assets to Medicare. The Health Care Financing Administration agreed with our
analysis and recommendation.